CERTIFICATE OF SERVICE
No. TBD
Keith Foster
Petitioner(s)
v.
United States of America
Respondent(s)

STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
)SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Keith
Foster Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
Elizabeth B. Perlogar
Solicitor General, US DOJ
Room 5616
950 Pennsylvania Ave., NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@usdoj .gov
Counsel for United States

Lucas'DeDeus

August 12, 2021
SCP Tracking: Foster-P.O. Box 12706-Cover White

